                      UNCLASSIFIED

  United States Department of State

and the Broadcasting Board of Governors

         Ofﬁce of Inspector General





                 Ofﬁce of Audits



Review of the Information 

 Security Program at the 

  Department of State

Report Number AUD/IT-10-10, November 2009




                                IMPORTANT NOTICE


 This report is intended solely for the ofﬁcial use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Ofﬁce of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will be
 determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
 disclosure of this report may result in criminal, civil, or administrative penalties.




                        UNCLASSIFIED

                                      UNCLASSIFIED





                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                      UNCLASSIFIED

                                            UNCLASSIFIED





                                TABLE OF CONTENTS

     Section                                                                                                         Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 

BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

RESULTS OF 2009 FISMA REVIEW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

   Critical, Volatile, and Inherited Controls Were Not Adequately Identiﬁed or 

   Tested . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

   Connectivity Between Contractor Systems and Department Systems Was Not 

   Adequately Identiﬁed, Tested, and Monitored . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

   Contingency Plan Toolkits Should be Improved . . . . . . . . . . . . . . . . . . . . . . . . 12

   Management of Conﬁguration Management Controls Process Was Not 

   Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

   Security Weaknesses in iPost Were Not Captured in the Department POA&M 

   Database . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

   Information Security Weaknesses Were Not Adequately Managed . . . . . . . . . . 19

   IT Audit-Related Security Weaknesses Were Not Adequately Managed . . . . . . 21

   Security Awareness Training Requirements Were Not Enforced . . . . . . . . . . . . 24

   All Employees With Signiﬁcant Security Responsibilities Did Not Attend 

   Required Role-Based Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

   Inventory Records Were Materially Correct . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

   Incident Management Program Was Adequately Managed . . . . . . . . . . . . . . . . 29

   Privacy Program Is in Compliance With Federal Requirements and OMB 

   Guidance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

APPENDICES

   A. Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

   B. Follow-up of Recommendations From the FY 2008 FISMA Report . . . . . . 41

   C. Bureau of Information Resource Management Response . . . . . . . . . . . . . . . 45




                                              UNCLASSIFIED

                                             UNCLASSIFIED





                             EXECUTIVE SUMMARY

        In response to the Federal Information Security Management Act of 2002
    (FISMA) (44 U.S.C. § 3545 et seq.), the review team performed an independent
    evaluation of the information security program at the Department of State (De-
    partment). The review team reviewed the Department’s progress in addressing
    FISMA information management and information security program requirements
    per FISMA and other statutory requirements, including Ofﬁce of Management and
    Budget (OMB) guidance. The review team assessed performance in various ar-
    eas, including certiﬁcation and accreditation (C&A), plan of action and milestones
    (POA&M), security awareness and training, conﬁguration management, inventory,
    incident reporting, and privacy requirements. Since FY 2008, the Department has
    taken steps to improve management controls to include the following:

         • 	 Updated Inventory Toolkits to provide guidance for inventory identiﬁcation,
             analysis, and recording. Signiﬁcant improvements have been made to ensure
             that inventory is materially correct.
         • 	 Effectively managed a decentralized Incident Management Program and re-
             ported incidents timely to the United States Computer Emergency Readiness
             Team (US-CERT).
         • 	 Updated the Privacy Impact Assessment template to make it compliant with
             OMB guidance.

         However, further improvements are needed. 


         • 	 Although the Annual Control Assessment Toolkit was modiﬁed in the third
             quarter of FY 2009 to include a deﬁnition of critical and volatile controls
             and training was provided to systems owners, the Department should work
             with systems owners to identify critical and volatile controls that should be
             tested for each application and system; expand the quality control program
             to include analysis of how well certiﬁcation testing addresses critical, volatile,
             and inherited controls; and ensure all controls are tested over a 3-year C&A
             cycle.
         • 	 Although the C&A Toolkits were modiﬁed in FY 2009 to instruct systems
             owners on how to identify external and inter-connections agreements, the
             Department should supplement the current information provided in the
             C&A Main Toolkit and Inventory Toolkit to include additional guidance for


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009     1 .


                                             UNCLASSIFIED
                                   UNCLASSIFIED



             annual testing of critical and volatile controls and be more proactive in re-
             viewing Systems Security Plans and test results to ensure compliance with the
             methodology in the C&A Toolkits.
         • 	 Although the Contingency Plan (CP) Toolkits were created in FY 2009,
             the Department should update them to include requirements that systems
             owners should review and revise CP following CP failed test results, create
             POA&M for failed CP control tests, and include veriﬁcation by the Ofﬁce of
             Information Assurance that systems owners are complying with CP Toolkits
             and methodology.
         In addition, the Department should take the following actions:

         • 	 Create an Information Security Architecture that outlines information secu-
             rity responsibility for the Department’s decentralized information security
             environment.
         • 	 Record and report systemic security weaknesses identiﬁed through the iPost/
             site Scoring process as POA&M actions to ensure that these weaknesses are
             tracked, prioritized, and remediated.
         • 	 Develop a method that ensures that each systems owner provides timely and
             complete updates to the POA&M database. Validate the information in the
             Department POA&M database, and review the Corrective Action Plan report
             before it is submitted to OMB.
         • 	 Create a Standard Operating Procedure for managing information technol-
             ogy-related security weaknesses that are identiﬁed during Chief Financial
             Ofﬁcers Act and Ofﬁce of Inspector General audits and for Government
             Accountability Ofﬁce and OMB Circular A-123, Management’s Responsibility for
             Internal Control, reviews.
         • 	 Implement methods to globally enforce the security awareness policies, and
             enhance existing methods to identify users who should take the Cyber Secu-
             rity Awareness Training Course.
         • 	 Improve methods to identify individuals with signiﬁcant security responsibili-
             ties, ensure that they take the required training every 3 years, record the train-
             ing records in the Ofﬁce of Personnel Management-approved centralized
             system, and provide management with tools to monitor compliance with the
             training requirement.
          The Toolkits provided guidance and ensured standard processes were used to
      perform C&A of FISMA-related systems. However, effective monitoring was not
      performed to ensure that systems owners were complying with established guidance




2 .            OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                   UNCLASSIFIED
                                             UNCLASSIFIED



    and methodology. Without active monitoring to ensure compliance, controls not
    tested for systems or networks may not be working effectively and could expose the
    Department to loss of conﬁdentiality, integrity, or availability.

    Management Comments

        In its consolidated response (Appendix C), the Bureau of Information Resource
    Management, in coordination with the Bureau of Diplomatic Security and the Bu-
    reau of Administration, concurred with the report’s nine recommendations. Based
    on the consolidated response, OIG considers all of the recommendations resolved,
    pending further action.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   3 .


                                             UNCLASSIFIED
                          UNCLASSIFIED





4 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                          UNCLASSIFIED
                                             UNCLASSIFIED





                                       BACKGROUND


    Federal Information Security Management Act

         The Federal Information Security Management Act of 2002 (FISMA) (Public
    Law 107-347, title III) recognized the importance of information security to the eco-
    nomic and national security interests of the United States. It requires each Federal
    agency to develop, document, and implement an agency-wide program to provide
    information security for the information systems that support the operations and as-
    sets of the agency, including those provided or managed by another agency, contrac-
    tor, or other source. FISMA provides a comprehensive framework for establishing
    and ensuring the effectiveness of management, operational, and technical controls
    over information technology (IT) that supports Federal operations and assets, and it
    provides a mechanism for improved oversight of Federal agency information secu-
    rity programs.

        FISMA assigns speciﬁc responsibilities to Federal agencies, the National Institute
    of Standards and Technology (NIST), and the Ofﬁce of Management and Budget
    (OMB) in order to strengthen information system security. In particular, FISMA
    requires the head of each agency to implement policies and procedures to cost ef-
    fectively reduce IT security risks to an acceptable level. To ensure the adequacy and
    effectiveness of information security controls, FISMA requires agency program
    ofﬁcials, Chief Information Ofﬁcers (CIO), Senior Agency Ofﬁcials for Privacy, and
    Inspectors General to conduct annual reviews of the agency’s information security
    program and report the results to OMB.

         Annually, OMB provides guidance with reporting categories and questions for
    meeting the current year’s reporting requirements. OMB uses this data to assist in
    its oversight responsibilities and to prepare its annual report to Congress on agency
    compliance with FISMA.

    Objective

        In accordance with FISMA, the Ofﬁce of Inspector General (OIG) initiated an
    annual review of the Department of State information security program and prac-
    tices as they relate to FISMA.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   5 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED



           The objective of the review was to evaluate the progress the Department had
      made in implementing an effective information security program and related prac-
      tices since the last OIG annual FISMA review in FY 2008, Review of the Information
      Security Program at the Department of State (AUD/IT-08-36, Oct. 2008).




6 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                    UNCLASSIFIED
                                             UNCLASSIFIED





               RESULTS OF 2009 FISMA REVIEW


    CRITICAL, VOLATILE, AND INHERITED CONTROLS WERE NOT
    ADEQUATELY IDENTIFIED OR TESTED
        In response to an FY 2008 FISMA report recommendation, the Bureau of
    Information Resource Management, Ofﬁce of Information Assurance (IRM/IA),
    improved its Annual Control Assessment Toolkit and provided two training work-
    shops in May 2009 for systems owners. The Toolkit provided deﬁnitions of what
    constitute critical and volatile controls as follows:

         • 	 Critical Control — Any control is considered critical if the failure of this
             single control is expected to result in a non-trivial breach of conﬁdentiality,
             integrity, or availability (denial of service) of information in the system or
             subsystem.

         • 	 Volatile Control — Any control that shows a historical pattern of unreli-
             ability. That shall be interpreted to mean any control for the system that has
             been veriﬁed to be working, has subsequently failed, and has not yet been
             veriﬁed to be working again in three subsequent tests over at least 2 years.

         The review team found that six (25 percent) of the 23 in-scope high- to mod-
    erate-impact systems reviewed documented critical or volatile controls in their test
    programs but that there was no rationale for selecting and testing these controls.
    Some systems designated a control as critical, while others showed it either as vola-
    tile or as neither. Signiﬁcant control testing gaps were found for systems that were
    certiﬁed and accredited in the FY 2008 report. Test gaps for these systems were
    virtually identical to testing gaps for annual testing. For many of the testing gaps
    identiﬁed, test documentation cited the controls as “inherited,” either at the bureau
    level or from OpenNet. However, the review team found that these controls were
    not tested at the bureau level and had not been tested by OpenNet. The review team
    also found that OpenNet did not test or effectively test for the control risks at the
    bureau or system level. Additionally, the review team reviewed iPost controls as part
    of the Conﬁguration Management (CM) review and found that while the controls
    did provide continuous monitoring, they did not compensate for the lack of annual
    testing for access and other volatile controls at the system level.

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   7 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED




          Section 2.9.2, “Selection of Security Controls for Monitoring,” of NIST Special
      Publication (SP) 800-37, revision 1, Guide for the Security Certiﬁcation and Accreditation of
      Federal Information Systems, states:

               The criteria for selecting which security controls to monitor and for
               determining the frequency of such monitoring should be established
               by the information system owner or common control provider in
               collaboration with the authorizing ofﬁcial or designated representa-
               tive, chief information ofﬁcer, senior agency information security
               ofﬁcer, and risk executive (function). The criteria should reﬂect the
               organization’s priorities and importance of the information system
               (or in the case of common controls, the information systems inherit-
               ing the controls) to organizational operations and assets, individu-
               als, other organizations and the Nation in accordance with Federal
               Information Processing Standards (FIPS) Publication 199, or the
               Committee on National Security Systems (CNSS) Instruction 1199.
               Organizations should use risk assessments, results of previous secu-
               rity assessments, and operational requirements in guiding the selec-
               tion of security controls to be monitored and the frequency of the
               monitoring process.

               Priority for control monitoring should be given to the security
               controls that have the greatest volatility (i.e., the greatest potential
               for change) after implementation and the controls that have been
               identiﬁed in the organization’s plan of action and milestones for the
               information system.

           IRM/IA’s new policy for critical and volatile controls was implemented only in
      the third quarter of FY 2009. As a result, earlier testing was not compliant with De-
      partment policy. IRM/IA’s quality control review did not independently verify that all
      critical and/or volatile controls were tested annually. IRM/IA relied on information
      system testers to perform the veriﬁcation. The review team found that OpenNet’s
      boundary deﬁnition was going through signiﬁcant changes, which may have contrib-
      uted to gaps in Enterprise Control testing.

         Controls not tested for the systems or network may not be working effectively
      and could expose Department data to loss of conﬁdentiality, integrity, or availability.




8 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED




        Recommendation 1: The Chief Information Security Ofﬁcer and the Bureau
        of Information Resource Management (IRM) should:

              • Work with systems owners to identify critical and volatile controls to test
              and use National Institute of Standards and Technology (NIST) Special
              Publication (SP) 800-53, revision 3, Recommended Security Controls for Federal
              Information Systems, August 2009, P1 priority controls as a starting point.
              • Establish procedures to verify that volatile controls are correctly deter-
              mined and tested.
              • Expand the IRM quality control program to include analysis of how well
              certiﬁcation testing addresses critical, volatile, and inherited controls and
              to also determine whether all controls are tested over a 3-year certiﬁcation
              and accreditation cycle.
              • Review inherited control selection procedures and update policy in the
              Toolkit to ensure that misunderstandings about critical but inherited con-
              trol testing responsibility are resolved.
              • Provide formal guidance on which NIST SP 800-53, revision 3, controls
              may be inherited from OpenNet and the conditions under which such in-
              heritance will be approved.



    Management Response and OIG Reply

        IRM concurred with the recommendation, stating that it will update the C&A
    toolkit to clarify how inherited controls may be selected, update the exit criteria
    checklist to ensure that inherited controls are selected in a manner consistent with
    policy, and ask NIST to map controls to the vulnerabilities listed on the National
    Vulnerability Database. Based on the response, OIG considers the recommendation
    resolved, pending further action.



    CONNECTIVITY BETWEEN CONTRACTOR SYSTEMS AND
    DEPARTMENT SYSTEMS WAS NOT ADEQUATELY IDENTIFIED,
    TESTED, AND MONITORED
        In response to two FY 2008 FISMA report recommendations, the Department
    modiﬁed the certiﬁcation and accreditation (C&A) toolkits to instruct systems own-
    ers to (a) identify external inter-connections and include copies of required Intercon-
    nection Security Agreement (ISA) and Memorandum of Understanding/Agreement
    (MOU/MOA) documents in the System Security Plan (SSP) and (b) test and verify,

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   9 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED


       at least annually, that interconnection agreements are listed and current in the SSP.
       The C&A toolkits were modiﬁed by IRM/IA to include speciﬁc instructions for the
       following:

           • 	 Requesting that systems owners update and add to the SSP any information
               on ISA, MOU, and MOA interconnections.
           • 	 Modifying the inventory data call so that it includes:
               ▫	 Reviewing the completeness and content of systems connections identi-
                  ﬁed in SSPs,
               ▫	 Accurately assessing the risk that those connections pose to other De-
                  partment systems, and
               ▫	 Verifying (at least annually) that all active connections to/from existing
                  major information systems are completely listed in the SSPs.
            The review team found that 13 (57 percent) of 23 in-scope unclassiﬁed systems
       listed MOU/MOA information in their SSPs, as required, as compared with nine (50
       percent) of 18 in-scope unclassiﬁed systems assessed during the 2008 FISMA review,
       as shown in Table 1.

       Table 1. MOUs in SSPs

                            Pass/Fail History Table 

                   CA-3 Information System Connections

                                 MOUs/Contracts

                   Fiscal Year 2008                Fiscal Year 2009
                 Number Percent                  Number     Percent
       Pass         9          50%                  13          57%
       Fail         9          50%                  10          43%
       Total       18         100%                  23         100%

           In FY 2009, the review team found that 11 (48 percent) of the 23 in-scope
       systems veriﬁed and tested CA-3 control requirements compared with seven (39
       percent) of 18 in-scope systems tested during the FISMA 2008 review, as shown in
       Table 2.




10 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



    Table 2. Veriﬁed and Tested C-3 Control

                                 Pass/Fail History Table


                        CA-3 Information System Connections


                        Control Requirements Veriﬁed & Tested

                      Fiscal Year 2008                      Fiscal Year 2009
                  Number      Percent                    Number      Percent
     Pass            7             39%                      11           48%
     Fail            11            61%                      12           52%
     Total           18            100%                     23           100%

         Section CA-3, “Information System Connections,” of NIST SP 800-53A, Guide
    for Assessing the Security Controls in Federal Information System, July 2008, states the follow-
    ing:

              (i) 	     The organization identiﬁes all connections to external information
                        systems (i.e., information systems outside of the accreditation bound-
                        ary);
              (ii) 	    The organization authorizes all connections from the external infor-
                        mation system through the use of system connection agreements;
                        and
              (iii) 	   The organization monitors and controls the system interconnections
                        on an ongoing basis.
        IRM/IA was not monitoring the SSPs to ensure that they were completed cor-
    rectly and that the CA-3 control was tested. Additionally, the toolkit was not updated
    timely and communicated to the appropriate systems owners prior to their complet-
    ing their annual testing.

         Systems connections, both internal and external, provide the electronic path for
    access and interfaces to both operating and application systems. Lack of formal
    identiﬁcation, documentation, and testing of these connections might make these
    systems susceptible to security weaknesses that may impact their integrity and avail-
    ability.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009          11 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



          Recommendation 2: The Chief Information Security Ofﬁcer, Bureau of In-
          formation Resource Management, and systems owners should:

              • Supplement the current information provided in the Certiﬁcation and
              Accreditation (C&A) Main Toolkit and Inventory Toolkit with additional
              guidance to include at least the following supplemental directives:
                  ▫	 Federal Information Security Management Act control CA-3 as a
                      requirement in the annual testing list of “critical” or “volatile” con-
                      trols for all moderate- and high-impact systems.
                  ▫	 Guidance on how to test and verify that the control is operating ef-
                      fectively.
              • Be more proactive in reviewing System Security Plans and test results to
              ensure compliance with the methodology in the C&A Toolkits.



       Management Response and OIG Reply

           IRM concurred with the recommendation but stated that it did not believe it
       should identify a set of critical and volatile controls (C&VC) at the Department level
       that should be considered C&VC for all systems in the enterprise, and it proposed
       new criteria. The proposed new criteria would require that the C&A toolkits be
       modiﬁed to provide proper deﬁnition of C&VCs and that veriﬁcation be performed
       to ensure that C&VCs are identiﬁed and tested. Based on the response, OIG consid-
       ers the recommendation resolved, pending further action.



       CONTINGENCY PLAN TOOLKITS SHOULD BE IMPROVED
           IRM/IA made improvements to its CP toolkits in response to two FY 2008
       FISMA report recommendations. In the third quarter of FY 2009, IRM/IA cre-
       ated the Contingency Plan Test Toolkit, which provided systems owners with clear
       direction on CP test requirements, including documenting test results. The Toolkit
       outlined an improved process and provided guidance systems owners needed to
       conduct CP tests appropriately. However, the review team found that some systems
       owners did not use the updated Toolkit and that the instructions on the Toolkit did
       not clearly communicate the requirements. Speciﬁcally, the review team found that
       CPs were not updated after contingency control failures following annual contin-
       gency planning test, when signiﬁcant changes occurred, and when annual tests were
       performed. Exceptions noted for the 23 in-scope systems reviewed are as follows:



12 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



                  1. The Consular Data Information Transfer System (CDITS) had
              three CP controls that failed in the System Accreditation Report (SAR). The
              controls that failed should have been identiﬁed previously as having failed in
              FY 2008 testing. These failures were not noted in the CP. The CP was dated
              August 17, 2009, and the report was dated August 17, 2009.

                   2. The Global International Narcotics and Law Enforcement (GINL)
              system had 11 failed CP controls during the SAR dated July 31, 2008. The
              SSP was dated December 31, 2007, and included failed CP controls. In the
              comments section, the plan was to be approved by January 2008. The last
              CP was dated December 31, 2007, and had not been updated to reﬂect these
              failed controls. The last CP Test was dated May 22, 2008, and was a “walk-
              through,” even though the SSP and System Categorization Form (SCF)
              stated that GINL was a high-risk system. High-risk systems required a
              “functional” test in addition to a “walkthrough.”

                  3. The OpenNet Electronic State Conﬁguration Resource (e-SCORE)
              system was identiﬁed in the SSP and SCF as a high risk system and had only
              a checklist and walkthrough test performed on May 28, 2009. The last Con-
              tingency Plan was dated March 21, 2007.

                   4. The Integrated Document Management & Analysis System
              (IDMAS) had a CP dated May 2, 2007 (contact names were updated Janu-
              ary 30, 2008). However, in the IDMAS Self Assessment dated May 10, 2007,
              CP-4, CP-5, and CP-7 were documented as “would fail.” IDMAS had two
              failed CP security controls in the SSP dated January 29, 2008. The Authority
              to Operate (ATO) dated May 30, 2008, had open CP ﬁndings, even though
              they were identiﬁed in the POA&M in May 2008.

                   5. The Public Key Infrastructure and BLADE (PKI/Blade) system
              had an Annual Assessment dated July 10, 2009, with no CP ﬁndings. In
              the POA&M report, PKI/Blade had open CP ﬁndings. The CP Test was
              a failover test, dated February 3, 2009, with POA&M ﬁndings. The CP
              was dated November 16, 2008. There was also a Signiﬁcant Change to the
              system on May 22, 2009. A Signiﬁcant Change to the system requires a new
              CP and test, according to NIST SP 800-84, Guide to Test, Training, and Exercise
              Programs for IT Plans and Capabilities, September 2006.

        OMB Circular A-130, Appendix III, Security of Federal Automated Information Re-
    sources, requires agencies to establish and periodically test the capability to continue
    providing services within a system based upon the needs and priorities of the system
    functionality. NIST SP 800-53, revision 2, further requires that agencies test and up-

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   13 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED


       date their systems’ CPs at least annually. The Foreign Affairs Manual (FAM) provides
       guidance on CP, in addition to the guidance provided by the IRM/IA toolkits.

           The C&A CP Toolkit did not indicate that CPs were to be updated and reviewed
       by IA following failures in CP testing or failed testing of CP controls during the sys-
       tems’ annual or C&A tests. Additionally, the toolkit may have been updated too late
       for most of the systems owners to use during the FY 2009 testing to comply with
       OMB guidance and NIST requirements.

            Without adequate testing of contingency plans, the Department cannot ensure
       that systems will operate properly or in a timely manner during an emergency or dis-
       ruption of service. Loss of the Department’s IT systems could limit management’s
       ability to perform its missions, including its critical functions in service to the public.


          Recommendation 3: The Chief Information Security Ofﬁcer, Bureau of In-
          formation Resource Management, and systems owners should take the follow-
          ing actions:

           •Update the Contingency Plan (CP) Toolkit to include the requirement that
             systems owners should review and revise the CP after any CP failed test
             results.
           •Update the CP exit criteria checklist to include veriﬁcation by the Bureau of
             Information Resource Management, Ofﬁce of Information Assurance
             (IRM/IA), that the systems owners:
              ▫ Conduct CP testing in accordance with the system’s National Institute
                  of Standards and Technology Special Publication 800-60, revision 1,
                  Guide for Mapping Types of Information and Information Systems to Security
                  Categories, August 2008, availability
                  Categories,               availability impact level
                                                                level as indicated on the Se-
                  curity Categorization Form (SCF).
              ▫ Create a Plan of Action and Milestones for each failed CP test/con-
                  trol.
              ▫ Update the CP to address each failed CP test/control (or provide clear
                  documentation explaining why no such update is necessary).
           •Update the exit checklists for the six documents listed to include veriﬁcation
             by IRM/IA that each document is consistent with the SCF, and modify the
             SCF checklist to include veriﬁcation by IA that these documents are up-
             dated if the impact level is revised upward. The documents are as follows:
              ▫ The System Security Plan
              ▫ The Contingency Plan
              ▫ The Security Control Assessment Plan (SCAP)
              ▫ The Certiﬁcation Report
              ▫ The Authority To Operate
              ▫ Future Annual or Certiﬁcation and Accreditation Tests


14 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



    Management Response and OIG Reply

        IRM concurred with the recommendation, stating that it plans to update the CP
    Toolkit to include requirements that system owners should review and revise the CP
    after any failed CP test results and also modify the CP exit criteria checklist to verify
    that the systems owners are conducting CP tests in accordance with NIST guidance.
    Based on the response, OIG considers the recommendation resolved, pending fur-
    ther action.



    MANAGEMENT OF CONFIGURATION MANAGEMENT CONTROLS
    PROCESS WAS NOT ADEQUATE
        The review team found that implementation and monitoring of conﬁguration
    management (CM) controls, including the scanning process, were decentralized
    and shared among bureaus, Information Systems Security Ofﬁcers (ISSO) , and
    IRM/IA. Over half of the 23 in-scope systems reviewed showed CM exceptions,
    based on reviews of SSPs, annual testing results, and routine scanning results as re-
    ported in iPost and then used for risk scoring. iPost routinely made scanning results
    available to systems owners, and the risk scoring reports and associated quarterly
    notiﬁcations to responsible system owners raised the visibility of CM weaknesses
    and provided roadmaps for correction. The resulting 90 percent reduction in overall
    risk during the past year was a graphic demonstration of iPost’s potential.

        The review team found, however, that these centralized controls were not fully
    integrated with decentralized bureau and system level controls and did not address
    signiﬁcant risks as follows:

         • 	 Only 90 percent of Windows servers were compliant with Systems Manage-
             ment Server (SMS) reporting requirements, leading to unreliable patch and
             virus management reporting. Time penalties in risk scoring have had only
             a limited effect (for example, Automated Biometric Identiﬁcation System
             (ABIS) and IT Asset Baseline (ITAB) 877) in inducing local managers to
             improve performance. Recurring patch management performance issues by
             some sites as reported in iPost suggested that a stronger approach be consid-
             ered.
         • 	 CM testing was inconsistent. Annual testing by system owners failed to
             include CM-6 (Conﬁguration Settings), which is a critical and volatile control.
             The problem was exacerbated by the failure of routine scanning to include
             database conﬁguration. In three instances where CM-6 controls were tested

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   15 .


                                             UNCLASSIFIED
                                      UNCLASSIFIED

               as part of recertiﬁcation (ABIS #877, CDITS #964, and Travel Document
               Issuance System Inquiry (TDIS) ITAB #89), the system failed CM-6 tests
               and related critical control tests (Access Controls, Systems Acquisition, and
               System and Information Integrity: AC-3, AC-6, AC-7, IA-5, SA-6, SA-7, and
               SI-2). However, other related controls (Audit and Accountability and Identi-
               ﬁcation and Authentication (AU-2 and IA-4)) were successfully tested.
           • 	 The scanning tools failed to query Oracle conﬁguration, the Department’s
               most common database system for conﬁguration control weaknesses that
               could have signiﬁcant impact on application access controls.
           • 	 Scanning results for routers, ﬁrewalls, and Demilitarized Zone (DMZ) serv-
               ers were not available in iPost; therefore, they were not used in risk scoring.
               Also, outbound e-mail content ﬁltering was not implemented.
           • 	 The results from Intrusion Detection Systems (IDS) scanning were not re-
               ported in iPost or utilized in risk scoring.
           • 	 Risk scores were available for individual Windows hosts and aggregated to
               the site level based on Active Directory units. The scores were not aggregat-
               ed by application systems, which would have been useful for business process
               owners and bureau management.
           FISMA1 requires each agency to develop minimally acceptable system conﬁgura-
       tion requirements and ensure compliance with them. Standard security conﬁgura-
       tions provide a baseline level of security, reduce risk from security threats and vul-
       nerabilities, and save time and resources. These controls allow agencies to improve
       system performance, decrease operating costs, and ensure public conﬁdence in the
       conﬁdentiality, integrity, and availability of government information. Agencies are
       to cite the frequency by which they implemented system conﬁguration requirements
       and must document and provide NIST with any deviation from common security
       conﬁgurations.

            Responsibility for the implementation of CM controls for the systems, operating
       systems, databases and network, including the scanning process, was decentralized,
       and the majority of the automated scanning results were not centralized and included
       in iPost for reporting and risk scoring.

           If reporting and risk scores in iPost are not accurately identifying the action risk
       to systems because the scores were limited to the Windows environment and did not
       include critical scan results, such as the application databases and the network (ﬁre-
       wall, routers, and switches), Department data may be exposed to loss of integrity and
       conﬁdentiality because conﬁguration standards may not be implemented.

       1
           Pub. L. No. 107-347 § 3544(b)(2)(D)(iii).

16 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED




        Recommendation 4: The Chief Information Security Ofﬁcer, Bureau of In-
        formation Resource Management, the Systems Integrity Director of Diplomat-
        ic Security, and the Deputy Chief Information Ofﬁcer for Business Planning
        and Customer Service should:
         • 	 Address the extent to which centralization versus decentralization of con-
             trol testing, remediation, and management should be readjusted to pro-
             duce better conﬁguration management (CM).
         • 	 Analyze and document the extent to which centralized automation of CM
             is an efﬁcient and more cost-effective method than the current decentral-
             ized method.
         • 	 Develop an Information Security Architecture that considers how to re-
             quest, review, document, and approve CM exceptions that may be neces-
             sary to allow the business of the Department of State to be conducted
             and provide criteria for the decision process.



    Management Response and OIG Reply

       IRM concurred with the recommendation to create an Information Security
    Architecture for the Information System Department. Based on the response, OIG
    considers the recommendation resolved, pending further action.



    SECURITY WEAKNESSES IN IPOST WERE NOT CAPTURED IN THE
    DEPARTMENT POA&M DATABASE
         IRM/IA managed a centralized POA&M Department database where security
    weaknesses from all the various bureaus were identiﬁed quarterly, monitored, and
    used to generate the quarterly reports for OMB reporting. However, systemic secu-
    rity weaknesses identiﬁed through the iPost/Site Scoring process were not entered
    into the Department’s POA&M database when they were not resolved immediately.
    Systemic weaknesses require a broader process/policy/budget change and not just
    technical mitigation of a particular weakness with existing resources. They may also
    include weaknesses that might require project management and/or coordinated ac-
    tion among multiple departments or bureaus to resolve.

         OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Informa-
    tion Security Management Act, August 23, 2004, states that the POA&M process was
    designed to resolve IT security control weaknesses with prioritization to ensure that
    vulnerabilities are addressed in a timely and cost-effective manner. Memorandum

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   17 .


                                             UNCLASSIFIED
                                      UNCLASSIFIED


       M-04-25 includes a spreadsheet that should be used as a model to identify and de-
       velop speciﬁc weaknesses, points of contact, resources required, scheduled comple-
       tion dates, milestones with attendant completion dates, changes in milestones, and
       statuses.

           FISMA requires that agencies develop POA&Ms to capture weaknesses identi-
       ﬁed during the C&A process, Ofﬁce of Inspector General (OIG) or Chief Financial
       Ofﬁcers (CFO) Act audits, and internal control reviews. These weaknesses need to
       be corrected and/or mitigated.

            The POA&M process facilitates the remediation of security weaknesses and
       provides a means of planning and monitoring corrective actions, categorizing risk,
       deﬁning roles and responsibilities for security weakness resolution, assisting in iden-
       tifying the resource requirements necessary to mitigate the weaknesses, tracking and
       prioritizing resources, and informing decision makers. Also, NIST2 recommends that
       the POA&M be updated, stating, “The updates should occur at appropriate intervals
       to capture signiﬁcant changes to the information system, but not so frequently as to
       generate unnecessary paperwork.”

           The iPost/Site Scoring process has been in production approximately a year, and
       the review team found that the process is evolving and has a lot of potential. How-
       ever, IA has not yet developed a process to report systems systemic weaknesses that
       are not remediated within a predeﬁned time period into the centralized POA&M
       database.

           The centralized POA&M did not include iPost systemic security weaknesses.
       Security weaknesses that remain unresolved for an extended period of time may
       increase vulnerabilities and exposures that could be exploited by intruders, and they
       may impact the integrity, availability, and conﬁdentiality of the Department’s systems
       and the network infrastructure.


           Recommendation 5: The Chief Information Security Ofﬁcer, Bureau of In-
           formation Resource Management, should work with systems owners to accom-
           plish the following:
                •Record systemic security weaknesses identiﬁed through the iPost/Site
                Scoring process as Plan of Action and Milestones (POA&M) actions to
                ensure the weaknesses are tracked, prioritized, and remediated.
                •Report POA&M actions on a quarterly basis for sites that have low scores,
                requiring them to raise those scores.
                •Report POA&M actions for risk covered by iPost scoring “exceptions.”


       2
           NIST SP 800-37, Guide for the Security Certiﬁcation and Accreditation of Federal
       Information Systems.
18 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED


    Management Response and OIG Reply

        IRM indicated concurrence with the recommendation to record systemic security
    weaknesses identiﬁed in iPost in the Department POA&M database, but it expressed
    “reservations” about the statement that all technical weaknesses must be closed and
    that iPost scoring is not part of the POA&M process. Based on the response, OIG
    considers this recommendation resolved, pending further action.



    INFORMATION SECURITY WEAKNESSES WERE NOT ADEQUATELY
    MANAGED
        IRM/IA and the respective bureaus need to improve management of security
    weaknesses. The review team found that policies, procedures, and tools are in place
    to track, maintain, update, validate, and prioritize security weaknesses at each of the
    respective bureaus. Also, quarterly updates from the respective bureaus’ databases
    were consolidated in the Department database that was managed by IA. However,
    the review team found that active monitoring, validation, and implementation of
    remediation steps to correct the security weaknesses were not performed by the
    respective bureaus or by IA, as was reported in the FY 2008 FISMA report.

        POA&Ms were not updated when there was a change in status. The review team
    found that the FY 2009 third quarter Corrective Action Plan (CAP) that was sent
    to OMB showed that the Bureau of Consular Affairs (CA) had 28 POA&M actions
    with “120 days overdue” dates, which was over 50 percent of the POA&M action
    items listed on the CAP report. Discussions with management and a review of the
    CA POA&M database revealed that many of these items had been corrected, but
    the POA&M status was not updated before these items were reported to CAP and
    issued to OMB.

         FISMA requires that agencies develop POA&Ms to capture weaknesses identi-
    ﬁed during the C&A process, OIG or CFO Act audits, and internal control reviews.
    These weaknesses need to be corrected and/or mitigated. The POA&M process
    facilitates the remediation of security weaknesses and provides a means for planning
    and monitoring corrective actions, categorizing risk, deﬁning roles and responsibili-
    ties for security weakness resolution, assisting in identifying the resource require-
    ments necessary to mitigate the weaknesses, tracking and prioritizing resources, and
    informing decision makers. Also, NIST3 recommends that the POA&M be updated,
    stating, “The updates should occur at appropriate intervals to capture signiﬁcant
    changes to the information system, but not so frequently as to generate unnecessary
    paperwork.”
    3
         NIST SP 800-37.
OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   19 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED




           According to the FAM:4

               Quarterly, systems owners must review and update their plan-of-action-and-
               milestones (POA&M) tool:

               (1)     POA&M reports must list residual risks and remediation efforts asso-
               ciated with the information systems under their control (see 5 FAM 814 for
               deﬁnition of system owner);

               (2)    Failure to submit quarterly POA&M updates may result in loss of
               funding and could lead to loss of accreditation and termination of the pro-
               gram.

           According to IA management, there had been several personnel changes in the
       functional area that managed the POA&M process. As a result, there had been a lack
       of oversight to ensure that bureaus were in compliance with POA&M policies and
       guidelines.

           Security weaknesses that remain unresolved for an extended period of time may
       increase vulnerabilities and exposures that could be exploited by intruders and may
       impact the integrity, availability, and conﬁdentiality of systems and the network in-
       frastructure. Without a POA&M process that validates that security weaknesses were
       remediated timely, management could not ensure that its systems were adequately
       secured and protected.


           Recommendation 6: The Chief Information Security Ofﬁcer, Bureau of In-
           formation Resource Management, should work with systems owners to imple-
           ment the following:

           • 	 Coordinate with systems owners to develop a method that ensures that
               each systems owner provides timely and complete updates to the Plan
               of Action and Milestones (POA&M) databases and to relevant ofﬁcials,
               including the Bureau of Information Resource Management, Ofﬁce of
               Information Assurance (IA), on a regular basis (Recommendation 4 in the
               FY 2008 FISMA report).
           • 	 Ensure that IA management implements a process to validate informa-
               tion in the Department of State POA&M database and performs a quality
               review on the Corrective Action Plan report before it is submitted to the
               Ofﬁce of Management and Budget.



       4
           5 FAM 1063.5c, “Reporting.”


20 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED


    Management Response and OIG Reply

         IRM concurred with the recommendation, stating that it will perform a quality
    assurance review before submitting the CAP to OMB and will provide “formal quar-
    terly grade letters” to bureaus on the quality of their POA&M process implementa-
    tion. Based on the response, OIG considers the recommendation resolved, pending
    further action.



    IT AUDIT-RELATED SECURITY WEAKNESSES WERE NOT
    ADEQUATELY MANAGED
        The review team noted there were no Standard Operating Procedures (SOP)
    for managing IT-related security weaknesses identiﬁed during CFO and OIG audits
    and GAO and OMB Circular A-123, Management’s Responsibility for Internal Controls,
    reviews:

         • 	 OIG provided an extract of its Compliance Analysis and Tracking Sys-
             tem (CATS) database to IRM/IA using codes that were provided by IRM/
             IA. The CATS database did not include an attribute to indicate whether an
             OIG recommendation was IT related. Because of the lack of this identi-
             ﬁer, IRM/IA had to manually review the extract provided by OIG and
             then import the recommendations deemed to be related to IT into IRM/IA’s
             Department-level (POA&M) database. There was no evidence that a root
             cause analysis was performed and that these recommendations were action-
             able with milestones and scheduled completion dates.

         • 	 Audits conducted by external auditors were not included in the CATS data-
             base. According to the OIG, IT recommendations from the A-123 reviews
             were provided directly to IRM, and IRM was responsible for distributing the
             recommendations to the responsible bureaus and importing them into the
             Department POA&M database. No formal documented procedures existed
             to process these recommendations, and there was no evidence that a root
             cause analysis was performed and that these recommendations were action-
             able with milestones and scheduled completion dates.

         • 	 IT audit recommendations resulting from CFO audits of IT general and
             application controls for ﬁnancial accounting application systems were sent
             directly to IRM/IA and imported into the Department’s POA&M data-
             base. There was no evidence that a root cause analysis was performed and
             that these recommendations were actionable with milestones and scheduled
             completion dates.

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   21 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED
           The review team found that no formal process and no centralized process for
       identifying and managing IT-related audit ﬁndings existed. Overlaps were not identi-
       ﬁed and jointly managed, and recommendations that impacted both IT and business
       processes were not analyzed for root cause and addressed in a collaborative way by
       both IRM/IA and the respective bureaus. In most instances, the review team found
       that recommendations or Notices of Potential Recommendations (NFR) were not
       analyzed for root cause and actionable with milestones before they were imported
       into the POA&M Department database.

            FISMA requires that agencies develop POA&Ms to capture weaknesses identi-
       ﬁed during the C&A process, OIG and CFO Act audits, and internal control reviews.
       These weaknesses need to be corrected and/or mitigated. The POA&M process
       facilitates the remediation of security weaknesses and provides a means for planning
       and monitoring corrective actions, categorizing risk, deﬁning roles and responsibili-
       ties for security weakness resolution, assisting in identifying the resource require-
       ments necessary to mitigate the weaknesses, tracking and prioritizing resources, and
       informing decision makers. Also, NIST recommends that the POA&M be updated,
       stating, “The updates should occur at appropriate intervals to capture signiﬁcant
       changes to the information system, but not so frequently as to generate unnecessary
       paperwork.”

          The FAM5 deﬁnes responsibilities of the Assistant Secretary for Resource Man-
       agement and Chief Financial Ofﬁcer that include the following:

               (7) Provides advice and technical assistance in developing necessary guides
               for performing risk assessments and management control reviews and de-
               signing management control systems;

               (8) Approves subsequent plans for risk assessments and reviews of manage-
               ment control systems;

               (9) Establishes and maintains a program of quality assurance over manage-
               ment control evaluations, reviews, and follow-up corrective actions;

               (10) Recommends Management Control Steering Committee action on pro-
               posed management control designs;

               (11) Ensures that appropriate follow-up action is taken on management
               control deﬁciencies and ﬁnancial losses by providing necessary guidance in
               designing needed additional controls;

               (12) Maintains a continuing liaison with and awareness of the activities of
               other Department elements having responsibilities for activities that contrib-
               ute to the goals and objectives of the management control program; and
       5
          2 FAM 022.3, “The Assistant Secretary for Resource Management and Chief Financial
       Ofﬁcer.”
22 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED


              (13) Reviews Government Accountability Ofﬁce, Inspector General, con-
              tractor, or management reports that apply in whole or in part to management
              controls; reviews the analyses that Information Resource Management (IRM)
              performs, which focuses on automated systems (general and application con-
              trols); and ensures that risk assessments, management control reviews, and
              determinations of deﬁciencies consider these sources of information.

         The OIG database did not have an attribute that uniquely tagged each IT recom-
    mendation to facilitate the process for IRM/IA to extract only IT-related recommen-
    dations in the Department POA&M database. Each OIG functional area submitted
    its IT-related audit ﬁndings or recommendations to IRM/IA, and no formal SOP
    existed to identify root causes and turn these weaknesses into POA&M actionable
    items.

        Some IT-related recommendations may not be tracked in the OIG database and
    imported into the POA&M database. Additionally, there may be duplicate efforts
    or lack of efforts to jointly manage and implement controls to remediate IT-related
    ﬁndings from OIG, GAO, and CFO audits and A-123 reviews. Without an effec-
    tive process that ensured that these security weaknesses were tracked and remediated
    timely, management did not have assurance that its systems were adequately secured
    and protected. This may impact the integrity, availability, and conﬁdentiality of sys-
    tems and the environment.


        Recommendation 7: The Chief Financial Ofﬁcer, Bureau of Information
        Resource Management, and systems owners should work together to develop,
        publish, and implement detailed Standard Operating Procedures (SOP) for ad-
        dressing information technology (IT) audit-related weaknesses and ﬁndings.
        These SOPs should deﬁne the following:

             • 	 Clear objectives and criteria on what should be actionable and tracked
                 in the Ofﬁce of Information Assurance Plan of Action and Milestones
                 (POA&M) Department of State database and how duplicated ﬁndings
                 or ﬁndings that include business processes and multiple bureaus should
                 be addressed in a collaborative effort among various parties.
             • 	 Responsibilities for each functional area in reviewing the ﬁndings or
                 recommendations or notices of potential ﬁndings and turning them
                 into actionable items to include root cause analyses, proposed action-
                 able solutions, responsible parties for implementing the solutions, and
                 milestones/tasks, including reasonable, scheduled completion dates,
                 before they are imported into the POA&M Department database.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   23 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED


       Management Response and OIG Reply

           IRM concurred with the recommendation to work with CFO and Circular A-123
       auditors to create SOPs for addressing information technology audit-related weak-
       nesses, as recommended. Based on the response, OIG considers the recommenda-
       tion resolved, pending further action.



       SECURITY AWARENESS TRAINING REQUIREMENTS WERE NOT
       ENFORCED
               The Department has developed and implemented information security poli-
       cies and procedures, including several information security awareness programs, to
       comply with NIST requirements and OMB guidance. The policy requires that all
       users take the web-based Cyber Security Awareness Course within 10 days of be-
       ing granted log-in access to OpenNet (Department of State Network). The review
       team found that all users with access to OpenNet did not take the PS800 Cyber
       Security Awareness Course within 10 days of access to OpenNet or annually by their
       course anniversary date. Users were reminded of this requirement, most recently in
       08 All Diplomatic and Consular Posts telegram (ALDAC) 087187 and Department
       Notice 2008_08_060. The review team found that enforcement of this requirement
       was not uniform from site to site. The Department used Active Directory (AD) to
       identify all OpenNet users who were required to take the course. OIG reported to
       OMB in FY 2008 that 55,000 (81 percent to 95 percent) employees and contractors
       had taken the Cyber Security Awareness Course. IRM reported that as of Septem-
       ber 1, 2009, the State Department had 70,000 OpenNet users, and the Bureau of
       Diplomatic Security reported that 67,800 users (97 percent) had taken the Cyber
       Security Awareness course.

           FISMA requires that agencies have sufﬁciently trained personnel to assist the
       agency in complying with FISMA and related policies, procedures, standards, and
       guidelines. FISMA also states that the required agency-wide information security
       program “shall include security awareness training to inform personnel, including
       contractors, of information security risks associated with their activities, and their
       responsibilities in complying with agency policies and procedures designed to reduce
       these risks.” NIST SP 800-53, revision 2, recommends that basic security awareness
       training be provided to all new information systems users (employees and contrac-
       tors) before granting them log-in privileges to the system. It also states that employ-
       ees should be provided with security awareness training annually to remind them of
       their responsibilities to protect information assets.

          Enforcement of the PS800 Cyber Security Awareness course completion require-
       ment was a decentralized function at the ISSO level. The Department’s policy to
24 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED


    revoke a user’s access to the network if the course was not taken within 10 days of
    access to OpenNet or annually by the employee’s course anniversary date was not
    mandatorily enforced by all ISSOs. The existing link between AD and the PS800
    Cyber Security Database did not ensure that all users added to AD were also in the
    database. The ISSOs were responsible for notifying employees within their function-
    al area of responsibility of the requirement to complete the course.

        Security awareness training educates employees about the methods the agency
    has implemented to protect information assets, the controls implemented, and the
    risks to the organization if those controls are compromised. Employees who are
    not properly trained about computer security may cause, contribute to, or become
    victims of vulnerabilities or security breaches, such as e-mail exploits, account or
    password sharing, inadequate safeguarding of passwords or computer resources,
    Internet misuse, corporate espionage, and social engineering.



        Recommendation 8: The Director of the Foreign Service Institute and the
        Director of the Ofﬁce of Computer Security, Bureau of Diplomatic Security,
        should:
         •Implement methods to globally enforce the security awareness policies to
           suspend a user’s access if the Cyber Security Awareness Course is not taken
           within 10 days of access to the Department of State Network or annually by
           the employee’s anniversary date.
         •Enhance already existing connectivity between Active Directory (AD) and the
           Course so that each time a user is created in AD, the user’s identiﬁcation is
           also registered in the Cyber Security database per Diplomatic and Consular
           Posts telegram ALDAC 087187 and Department Notice 2008_08_060.
         •Provide additional monitoring tools for the Information Systems Security Of-
           ﬁcers to ensure user compliance with established policies.




    Management Response and OIG Reply

        IRM concurred with the recommendation, stating that it will implement methods
    globally to enforce the security awareness policy, integrate information in the Active
    Directory with information in the Cyber Security Awareness database, and provide
    ISSOs with monitoring tools to ensure compliance with Information Security Aware-
    ness policies. Based on the response and the actions already taken, OIG considers
    the recommendation resolved, pending further action.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   25 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED




       ALL EMPLOYEES WITH SIGNIFICANT SECURITY RESPONSIBILITIES
       DID NOT ATTEND REQUIRED ROLE-BASED TRAINING
           The Department developed and implemented a “role-based information assur-
       ance training program” to meet the federal requirements under FISMA and OPM
       guidance. The FY 2007 Information Assurance Training Plan identiﬁed and provided
       speciﬁc training courses for the following identiﬁed roles: Executives, Senior Level
       Managers, Program Managers and IT Security Managers, Auditors, Technical Security
       Personnel, and Other IT Security Roles.

           All training records were stored in an OPM-approved centralized system, the
       “Student Training Management System” (STMS). This system tracked all registra-
       tions and course completions for only courses identiﬁed in the Information Assur-
       ance Plan. However, it did not track courses that are Department paid that employ-
       ees take yearly to meet continuing professional education requirements. Management
       did not receive a report periodically showing which training courses employees with
       signiﬁcant security responsibilities had attended. Of the sampled selections of 15
       U.S.-based ISSOs with signiﬁcant security responsibilities, ﬁve (33.33 percent) had
       not attended any training courses in the past 3 years, two of whom were branch
       chiefs. All 14 sampled international ISSOs had attended at least one role-based train-
       ing course in the past 3 years per the plan’s requirement. This year, the CIO reported
       to OMB that only 24 percent (1,008 of 4,135) of the employees and contractors with
       signiﬁcant security responsibilities had attended role-based training in FY 2008.

               OMB guidelines and NIST SP 800-16, Information Technology Training Require-
       ments: Role- and Performance-Based Model, April 1998, require that agencies identify
       employees with signiﬁcant security responsibilities and provide specialized training.
       FISMA mandates that agencies implement IA training to enhance awareness of all
       personnel and to ensure the protection of the agency’s information assets. Among
       the CISO responsibilities is the need to ensure sufﬁcient IA training for all Depart-
       ment systems users. This includes general awareness training, as well as speciﬁc role-
       based training, for those with signiﬁcant information security responsibilities. The IA
       training plan deﬁned guidelines for Department information system security aware-
       ness and training. In addition, the plan provided guidance on identifying employees
       with signiﬁcant information security responsibilities and the recommended training
       associated with these responsibilities.

          The review team found that controls did not exist to identify and monitor an-
       nually training for employees with signiﬁcant security responsibilities. Department
       managers were not provided periodic reports from the STMS that showed require-
       ments and compliance with training requirements.

26 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED



         Employees with signiﬁcant security responsibilities were tasked with implement-
    ing, enforcing, and monitoring compliance with the Department’s security policies
    and guidelines. Without ensuring that annual training needs are met, these personnel
    may be unaware of their security responsibilities or be improperly prepared to effec-
    tively perform those duties.

        This increases the risk of a computer security incident that could result in loss,
    destruction, or misuse of sensitive data and resources.



        Recommendation 9: The Bureau of Diplomatic Security Assistant Director
        of Training, the Bureau of Information Resource Management Chief Informa-
        tion Security Ofﬁcer, and bureau systems owners should work together to:

         •Improve methods to identify individuals with signiﬁcant security 

              responsibilities;

         •Notify these individuals, including employees, supervisors, managers, 

             and executives, of their role-based training requirement;

         •Monitor compliance with the training requirements;
         •Provide management with reports that show compliance with the training
             requirement; and
         •Modify the Student Training Management System to capture other training
             programs, such as those paid for by the Department, to meet Continuing
             Professional Education requirements (for example, CISSP designation).




    Management Response and OIG Reply

        IRM concurred with the recommendation, stating it will consider methods to
    identify who has signiﬁcant security responsibilities and develop methods to commu-
    nicate and monitor compliance with training requirements. Based on the response,
    OIG considers the recommendation resolved, pending further action.



    INVENTORY RECORDS WERE MATERIALLY CORRECT
        In response to four FY 2008 FISMA report recommendations relating to inven-
    tory systems management and oversight of contractor systems, IRM/IA modiﬁed its


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   27 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED



       procedures for collecting, analyzing, and managing inventory systems. The review
       team found that IRM/IA had implemented several controls procedures that were
       reviewed and veriﬁed during the team’s analysis of 3rd and 4th quarter inventory
       records. Speciﬁcally, the following controls were implemented:

          • 	 The inventory toolkits were updated to provide guidance on inventory identi-
              ﬁcation, analysis, and recording. The FY 2009 inventory data call provided in-
              creased focus on deﬁning and identifying “contractor systems” and “system
              connections” that were missing in FY 2008.

          • 	 The FY 2009 inventory data call was initiated in early November 2008.

          • 	 Routine quarterly inventory data calls were made, and they reminded bureau
              and post systems owners to report new systems and signiﬁcant changes to
              systems to ensure the accuracy of their FISMA-reportable inventory.

            FISMA requires the Department to keep an inventory of information systems.
       OMB Circulars A-123, A-127 (Financial Management Systems), and A-130 (Management
       of Federal Information Resources) require agencies to develop and maintain an informa-
       tion systems inventory, document the types of information systems required to be
       reported, and detail how and how often those reports must be submitted to OMB.
       FIPS Publication 199 requires that agencies categorize their information systems as
       low-, moderate-, or high-impact. Systems with privacy-related information automati-
       cally raise the systems to the level of “Major Information Systems,” thereby needing
       to be reported in the information system inventory.

           In FY 2009, the inventory process included quarterly (as opposed to annually in
       FY 2008) data calls to identify, qualify, and quantify all information systems in use
       at each bureau and overseas post. The process was intended to identify the universe
       of information systems and IT assets such as networks (general support systems),
       applications, and websites. IRM/IA used the results of the data call to populate two
       primary databases: the IT Asset Baseline (ITAB) and the FISMA Inventory Data-
       base. ITAB stored the universe of the Department’s IT assets inventory and was
       used to track and report the IT assets managed by the Department. The FISMA
       Inventory Database stored information on identiﬁed major information systems that
       are FISMA reportable. IRM/IA analyzed the data in the ITAB database with the as-
       set owner in order to identify the major information systems that should be reported
       in the inventory as those evaluated for FISMA compliance.

           The inventory information included in the Department’s 3rd quarter inventory
       records was the basis for selection of the systems that were used to perform tests
       based on OMB guidelines. Selected for in-scope testing were 23 high- and moderate-


28 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED




    impact systems, consisting of 18 from the prior year’s in-scope sample and ﬁve ad-
    ditional systems, which the review team assumed contained PII data. The 18 systems
    from the prior year were included in the sample because the review team believed
    that an analysis of these systems would provide a method for judging what improve-
    ments had been made in the C&A process and also to verify implementation of the
    FY 2008 recommendations. The review team found the inventory to be materially
    correct with no management recommendations.



    INCIDENT MANAGEMENT PROGRAM WAS ADEQUATELY MANAGED
        The review team found that even though incident response management was
    decentralized, well-deﬁned procedures existed and the process was well coordinated
    and operated effectively in the past 2 years. The computer incident response team
    (CIRT), within DS, was the center of the Department’s incident response program.
    CIRT’s efforts to safeguard the Department’s networks involved collaboration and
    information sharing with other program ofﬁcials within DS, including the Cyber
    Threat Analysis Division (CTAD) and the Virus Incident Response Team (VIRT). In
    addition, CIRT ofﬁcials coordinated with IRM’s Firewall Team and Enterprise Net-
    work Management Operations Center, systems managers, ISSOs, regional computer
    security ofﬁcers, and the privacy team. CIRT worked cohesively with these entities
    to identify threats; monitor networks; identify, analyze, and report anomalies; imple-
    ment corrective action; and identify trends to improve the security posture for the
    Department.

         FISMA requires agencies to establish procedures for detecting, reporting, and re-
    sponding to security incidents. NIST SP 800-61, revision 1, Computer Security Incident
    Handling Guide, March 2008, provides guidance to agencies on establishing an effec-
    tive incident response program. The guidance focuses on four phases: preparation,
    detection and analysis, containment/eradication/recovery, and post-incident activity.
    OMB Circular A-130, Appendix III, requires agencies to develop SSPs. SSPs are an
    overview of the security requirements of the system and describe the controls in
    place or planned to meet those requirements. The SSPs also delineate the responsi-
    bilities for and the expected behavior of all individuals who access the system. The
    SSP is organized into three general classes of security controls: management, opera-
    tional, and technical. Incident reporting is part of the operational security controls.

        To verify that security incidents were reported timely to the US-CERT,6 as
    required by Department policy, the review team obtained and reviewed DS CIRT
    6
       US-CERT is the operational arm of the National Cyber Security Division at the Department of
    Homeland Security.

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009        29 .


                                             UNCLASSIFIED
                                      UNCLASSIFIED




       monthly and daily reports for the months of October 2008 and January and April
       2009. The review team found that in October, 14 PII tickets were identiﬁed and
       reported to US-CERT, as required; in January, ﬁve Information Security tickets were
       identiﬁed and reported to US-CERT, as required; and in April, ﬁve PII tickets and
       one unauthorized access ticket were reported to US- CERT. A few minor exceptions
       were identiﬁed in April, but the review team was able to resolve the issues with sup-
       porting e-mail documentation from CIRT.



       PRIVACY PROGRAM IS IN COMPLIANCE WITH FEDERAL
       REQUIREMENTS AND OMB GUIDANCE
           At the Department of State, the Assistant Secretary for Administration is the
       Senior Agency Ofﬁcial for Privacy and is responsible for implementing privacy
       programs. The Privacy Division managed and operated a privacy program in com-
       pliance with OMB policies and guidance and developed and documented adequate,
       compliant policies for safeguarding privacy-related information. Privacy training is
       provided to employees but is not mandatory.

           Privacy guidance and provisions for all Federal agencies are described in section
       208 of the E-Government Act of 20027 and OMB Memorandum M-03-22, Guid-
       ance for Implementing the Privacy Provisions of the E-Government Act of 2002, September
       26, 2003. Per the E-Government Act of 2002, agencies are required to conduct
       privacy impact assessments (PIA) for electronic information systems and collection
       and make the assessments publicly available. Further, the agency must post privacy
       policies on agency Web sites and translate privacy policies into a standardized ma-
       chine-readable format. OMB Memorandum M-03-22 provides additional guidance
       to the agencies and directs agencies to conduct reviews of how information about
       individuals is handled within their respective agency when they use electronic means
       to collect new information or when agencies develop or buy new systems to handle
       collections of PII.

           The Privacy Division created a new PIA template with a guide to assist sys-
       tems owners in developing required PIAs and tools for identifying and mitigating
       privacy risks. The review team obtained and reviewed the new PIA template and
       found that it addressed all applicable privacy OMB-required content. For each of
       the 23 in-scope systems, the review team determined whether a PIA should have
       7
           Pub. L. No. 107-347, 44 U.S.C., ch. 36.




30 .              OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                      UNCLASSIFIED
                                             UNCLASSIFIED




    been completed, the new PIA template was used, and the template was completed
    correctly in accordance with the guidelines. The review team found that ﬁve of the
    in-scope systems did not contain PII and did not require a PIA; eight systems used
    the new template and were completed correctly; and of the eight that did not use
    the new template, three of these eight did not state clearly what PII data was col-
    lected. According to the Privacy Ofﬁcer, a program was implemented in response
    to the FISMA FY 2008 review to update the PIA template in FY 2009 and to use a
    3-year approach to migrate all existing PIAs to the updated template as the systems
    are recertiﬁed. Based on advice from the review team, the Privacy Ofﬁcer agreed to
    accelerate implementation of the new PIA template.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   31 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





32 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





                     LIST OF RECOMMENDATIONS

    Recommendation 1: The Chief Information Security Ofﬁcer and the Bureau of
      Information Resource Management (IRM) should:
          • 	 Work with systems owners to identify critical and volatile controls to test and
              use National Institute of Standards and Technology (NIST) Special Publica-
              tion (SP) 800-53, revision 3, Recommended Security Controls for Federal Information
              Systems, August 2009, P1 priority controls as a starting point.
          • 	 Establish procedures to verify that volatile controls are correctly determined
              and tested.
          • 	 Expand the IRM quality control program to include analysis of how well
              certiﬁcation testing addresses critical, volatile, and inherited controls and to
              also determine whether all controls are tested over a 3-year certiﬁcation and
              accreditation cycle.
          • 	 Review inherited control selection procedures and update policy in the Tool-
              kit to ensure that misunderstandings about critical but inherited control test-
              ing responsibility are resolved.
          • 	 Provide formal guidance on which NIST SP 800-53, revision 3, controls may
              be inherited from OpenNet and the conditions under which such inheritance
              will be approved.



    Recommendation 2 : The Chief Information Security Ofﬁcer, Bureau of Informa-
      tion Resource Management, and systems owners should:

          • 	 Supplement the current information provided in the Certiﬁcation and Ac-
              creditation (C&A) Main Toolkit and Inventory Toolkit with additional guid-
              ance to include at least the following supplemental directives:

              ▫	       Federal Information Security Management Act control CA-3 as a re
                       quirement in the annual testing list of “critical” or “volatile” controls
                       for all moderate- and high-impact systems.

              ▫	       Guidance on how to test and verify that the control is operating ef
                       fectively.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009       33 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED




           • 	 Be more proactive in reviewing System Security Plans and test results to en-
               sure compliance with the methodology in the C&A Toolkits.

       Recommendation 3 : The Chief Information Security Ofﬁcer, Bureau of Informa-
         tion Resource Management, and systems owners should take the following ac-
         tions:
            • 	 Update the Contingency Plan (CP) Toolkit to include the requirement that
                systems owners should review and revise the CP after any CP failed test re-
                sults.
            • 	 Update the CP exit criteria checklist to include veriﬁcation by the Bureau
                of Information Resource Management, Ofﬁce of Information Assurance
                (IRM/IA), that the systems owners:
               ▫	 Conduct CP testing in accordance with the system’s National Institute
                  of Standards and Technology Special Publication 800-60, revision 1,
                  Guide for Mapping Types of Information and Information Systems to Security Cat-
                  egories, August 2008, availability impact level as indicated on the Security
                  Categorization Form (SCF).
               ▫	 Create a Plan of Action and Milestones for each failed CP test/control.
               ▫	 Update the CP to address each failed CP test/control (or provide clear
                  documentation explaining why no such update is necessary).
           • 	 Update the exit checklists for the six documents listed to include veriﬁcation
               by IRM/IA that each document is consistent with the SCF, and modify the
               SCF checklist to include veriﬁcation by IA that these documents are updated
               if the impact level is revised upward. The documents are as follows:
               ▫	 The System Security Plan
               ▫	 The Contingency Plan
               ▫	 The Security Control Assessment Plan (SCAP)
               ▫	 The Certiﬁcation Report
               ▫	 The Authority To Operate
               ▫	 Future Annual or Certiﬁcation and Accreditation Tests
       Recommendation 4: The Chief Information Security Ofﬁcer, Bureau of Informa-
         tion Resource Management, the Systems Integrity Director of Diplomatic Secu-
         rity, and the Deputy Chief Information Ofﬁcer for Business Planning and Cus-
         tomer Service should:
           • 	 Address the extent to which centralization versus decentralization of control
               testing, remediation, and management should be readjusted to produce bet-
               ter conﬁguration management (CM).

34 .            OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                    UNCLASSIFIED
                                             UNCLASSIFIED




          • 	 Analyze and document the extent to which centralized automation of CM is
              an efﬁcient and more cost-effective method than the current decentralized
              method.
          • 	 Develop an Information Security Architecture that considers how to request,
              review, document, and approve CM exceptions that may be necessary to al-
              low the business of the Department of State to be conducted and provide
              criteria for the decision process.
    Recommendation 5: The Chief Information Security Ofﬁcer, Bureau of Informa-
      tion Resource Management, should work with systems owners to accomplish the
      following:
           • 	 Record systemic security weaknesses identiﬁed through the iPost/Site Scor-
               ing process as Plan of Action and Milestones (POA&M) actions to ensure
               the weaknesses are tracked, prioritized, and remediated;
           • 	 Report POA&M actions on a quarterly basis for sites that have low scores,
               requiring them to raise those scores.
           • 	 Report POA&M actions for risk covered by iPost scoring “exceptions.”
    Recommendation 6: The Chief Information Security Ofﬁcer, Bureau of Informa-
      tion Resource Management, should work with systems owners to implement the
      following:

           • 	 Coordinate with systems owners to develop a method that ensures that each
               systems owner provides timely and complete updates to the Plan of Action
               and Milestones (POA&M) databases and to relevant ofﬁcials, including the
               Bureau of Information Resource Management, Ofﬁce of Information As-
               surance (IA), on a regular basis (Recommendation 4 in the FY 2008 FISMA
               report).

           • 	 Ensure that IA management implements a process to validate information
               in the Department of State POA&M database and performs a quality review
               on the Corrective Action Plan report before it is submitted to the Ofﬁce of
               Management and Budget.

    Recommendation 7: The Chief Financial Ofﬁcer, Bureau of Information Resource
      Management and systems owners should work together to develop, publish, and
      implement detailed standard operating procedures (SOP) for addressing informa-
      tion technology (IT) audit-related weaknesses and ﬁndings. These SOPs should
      deﬁne the following:

          • 	 Clear objectives and criteria on what should be actionable and tracked in the
              Ofﬁce of Information Assurance Plan of Action and Milestones (POA&M)

OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   35 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED



              Department of State database and how duplicated ﬁndings or ﬁndings that
              include business processes and multiple bureaus should be addressed in a
              collaborative effort among various parties.

           • 	 Responsibilities for each functional area in reviewing the ﬁndings or recom-
               mendations or notices of potential ﬁndings and turning them into action-
               able items to include root cause analyses, proposed actionable solutions,
               responsible parties for implementing the solutions, and milestones/tasks,
               including reasonable, scheduled completion dates, before they are imported
               into the POA&M Department database.

       Recommendation 8: The Director of the Foreign Service Institute and the Direc-
         tor of the Ofﬁce of Computer Security, Bureau of Diplomatic Security should:
            • 	 Implement methods to globally enforce the security awareness policies to
                suspend a user’s access if the Cyber Security Awareness Course is not taken
                within 10 days of access to the Department of State Network or annually
                by the employee’s anniversary date.
            • 	 Enhance already existing connectivity between Active Directory (AD) and
                the Course so that each time a user is created in AD, the user’s identiﬁcation
                is also registered in the Cyber Security database per Diplomatic and Con-
                sular Posts telegram ALDAC 087187 and Department Notice 2008_08_060.
            • 	 Provide additional monitoring tools for the Information Systems Security
                Ofﬁcers to ensure user compliance with established policies.
       Recommendation 9: The Bureau of Diplomatic Security Assistant Director of
         Training, the Bureau of Information Resource Management Chief Information
         Security Ofﬁcer, and bureau systems owners should work together to:
           • 	 Improve methods to identify individuals with signiﬁcant security responsi-
               bilities;
           • 	 Notify these individuals, including employees, supervisors, managers, and
               executives, of their role-based training requirement;
           • 	 Monitor compliance with the training requirements;
           • 	 Provide management with reports that show compliance with the training
               requirement; and
           • 	 Modify the Student Training Management System to capture other training
               programs, such as those paid for by the Department, to meet Continuing
               Professional Education requirements (for example, CISSP designation).




36 .            OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                    UNCLASSIFIED
                                             UNCLASSIFIED





                                        ABBREVIATIONS

    AD                             Active Directory
    ATO                            Authority to Operate
    C&A                            certiﬁcation and accreditation
    CA                             Bureau of Consular Affairs
    CAP                            Corrective Action Plan
    cdits                          Consular Data Information Transfer System
    CFO                            Chief Financial Ofﬁcers
    CIO                            Chief Information Ofﬁcer
    CISO                           Chief Information Security Ofﬁcer
    CIRT                           Computer Incident Response Team
    CM                             Conﬁguration Management
    CNSS                           Committee on National Security Systems
    CP                             Contingency Plan
    CPE                            Continuing Professional Education
    Department                     Department of State
    DS                             Diplomatic Security
    FAM                            Foreign Affairs Manual
    FIPS                           Federal Information Processing Standards
    FISMA                          Federal Information Security Management Act of 2002
    IA                             Ofﬁce of Information Assurance
    IDS                            Intrusion Detection Systems
    IG                             Inspector General
    IRM                            Information Resource Management
    IRM/IA                         Ofﬁce of Information Assurance, IRM
    ISA                            Interconnection Security Agreement


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   37 .


                                             UNCLASSIFIED
                                     UNCLASSIFIED




       ISSO                    Information System Security Ofﬁcers
       IT                      information technology
       NIST                    National Institute of Standards and Technology
       MOU/MOA                 Memorandum of Understanding/Agreement
       OIG                     Ofﬁce of Inspector General
       OMB                     Ofﬁce of Management and Budget
       OpenNet                 Department of State internal network (intranet)
       OPM                     Ofﬁce of Personnel Management
       PIA                     Privacy Impact Assessment
       PII                     Personally Identiﬁable Information
       POA&M                   plan of action and ,ilestones
       PTA                     Privacy Threshold Analysis
       RM                      Bureau of Resource Management
       SAR                     System Accreditation Report
       SCAP                    Security Control Assessment Plan
       SCF                     System Categorization Form
       SMS                     Systems Management Server
       SP                      Special Publication
       SSP                     System Security Plan
       US-CERT                 United States Computer Emergency Readiness Team




38 .             OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                     UNCLASSIFIED
                                             UNCLASSIFIED





                                         APPENDIX A



SCOPE AND METHODOLOGY
     The scope of the review was limited to the Inspector General’s reporting categories (as
listed) and questions included in Ofﬁce of Management and Budget (OMB) Memorandum
M-09-29, FY 2009 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, August 20, 2009. The reporting categories included the follow-
ing:
           • Inventory
           • Certiﬁcation and Accreditation (C&A), Security Controls Testing, and
             Contingency Plan Testing
           • Evaluation of Agency Oversight of Contractor Systems and Quality of
             Agency Inventory
           • Evaluation of the Agency’s Plan of Action and Milestones (POA&M) Pro-
             cess
           • Inspector General (IG) Assessment of the C&A Process
           • IG Assessment of the Agency’s Privacy Program and Privacy Impact
             Assessment (PIA) Process
           • Conﬁguration Management
           • Incident Reporting
           • Security Awareness Training
           • Peer-to-Peer File Sharing


    The review team conducted this review in accordance with OMB guidance and Federal
Information Security Management Act of 2002 (FISMA) recommendations, which re-
quired that the team plan and perform the review to obtain sufﬁcient, appropriate evidence
to provide a reasonable basis for its ﬁndings and conclusions based on the review objec-
tives. To accomplish this, the review team did the following:
           •	      Reviewed prior FISMA reports and their supporting work papers.
           •	      Interviewed Department of State Information System management to gain
                   an understanding of the policies, procedures, and controls used to imple-
                   ment FISMA and OMB guidelines.


OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009     39 .


                                             UNCLASSIFIED
                                    UNCLASSIFIED




               •     Reviewed policies and procedures posted on the Department’s intra-
               net, OpenNet.
               •     Documented its understanding of the environment.
               •     Obtained third quarter inventory records. Made a judgmental selec-
               tion of 23 systems for the in-scope FY 2009 testing. The sample of 23
               consisted of 18 systems from the previous year (FY 2008) and ﬁve new
               systems from the current year that may have interfaces with other systems
               and contain personally identiﬁable information.
               •     Obtained and analyzed supporting evidence from management to
               determine whether the policies, procedures, and controls implemented
               operated effectively during the ﬁscal year.
               •     Obtained and analyzed evidence to determine whether management
               had implemented corrective actions to close prior years’ audit ﬁndings and
               recommendations.
           During the review, the review team documented and communicated to manage-
       ment issues identiﬁed through Notices of Potential Finding and Recommendations.
       These notices were communicated to the Department management, who concurred
       with all of them.




40 .            OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                    UNCLASSIFIED
                                             UNCLASSIFIED





                                          APPENDIX B



    FOLLOW-UP OF RECOMMENDATIONS FROM THE FY 2008 FISMA
    REPORT
         The review team reviewed actions implemented by management to mitigate the
         control gaps identiﬁed in the FY 2008 FISMA report. The current status of
         each of those recommendations is as follows:

         Recommendation 1: The Chief Information Ofﬁcer should reschedule annual
         inventory data call activities to allow sufﬁcient time to complete the analysis of
         pending items prior to the annual FISMA review.

         2009 Status – Closed. Inventory analysis started in November 2008, with quarterly updates
         performed in 2009.

         Recommendation 2: The Chief Information Ofﬁcer should ensure that system
         owners are provided with improved guidance for properly identifying contractor-
         owned or -operated systems and how to report them for systems inventory
         purposes.

         2009 Status – Closed. Improved guidance was provided in inventory ToolKits, and follow-up
         was performed by the Bureau of Information Resource Management, Ofﬁce of Information
         Assurance.

         Recommendation 3: The Chief Information Ofﬁcer should ensure that nation-
         al security systems are properly classiﬁed and accounted for by the Bureaus of
         Information Resources Management and Diplomatic Security in their respective
         Federal Information Security Management Act inventories.

         2009 Status – Closed. Only one national security system was found in the wrong inventory
         system during an analysis of the inventory systems. This was not an exception.

         Recommendation 4: The Chief Information Ofﬁcer should coordinate with
         systems owners to develop a method to ensure that each systems owner provides



OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009        41 .


                                             UNCLASSIFIED
                                   UNCLASSIFIED




       timely and complete updates to plans of action and milestones databases and relevant
       ofﬁcials, including the Bureau of Information Resource Management, Ofﬁce of Infor-
       mation Assurance, on a regular basis.

       2009 Status – This is a repeat recommendation from the FY 2008 report. It has become Recommen-
       dation 6 in the FY 2009 report.

       Recommendation 5: The Chief Information Ofﬁcer should develop and test system
       connection agreement control (NIST SP 800-53 control CA-3) between Department
       system owners and external connection system owners to serve as a compensating con-
       trol for systems security plan testing.

       2009 Status – Partially implemented. This recommendation was combined with Recommendation 10,
       which was also partially implemented, and has become Recommendation 2 in the FY 2009 report.

       Recommendation 6: The Chief Information Ofﬁcer should review the security con-
       trol testing program to ensure that all critical controls are identiﬁed and tested at least
       annually for high and moderate risk systems.

       2009 Status – Partially implemented. This recommendation has become Recommendation 1 in the
       FY 2009 report.

       Recommendation 7: The Chief Information Ofﬁcer should update its policy on con-
       tingency planning to require that contingency plan test results be incorporated into an
       updated system contingency plan.

       2009 Status – Partially implemented. This recommendation was combined with Recommendation 8,
       which was also partially implemented, and has become Recommendation 3 in the FY 2009 report.

       Recommendation 8: The Chief Information Ofﬁcer should provide guidance to sys-
       tem owners to ensure that contingency plan test results are adequately documented and
       incorporated, as needed, into the plans of action and milestone process.

       2009 Status – Partially implemented. This recommendation was combined with Recommendation 7,
       which was also partially implemented, and has become Recommendation 3 in the FY 2009 report.

       Recommendation 9: The Chief Information Ofﬁcer should develop and document
       a process for management and oversight of contractor-owned and/or -operated infor-
       mation systems. This documented process should include, at a minimum, the process
       for identifying and describing the interconnectivity between contractor systems and the
       Department.



42 .           OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                                   UNCLASSIFIED
                                             UNCLASSIFIED




   2009 Status – Closed. Improved guidance was provided in inventory Toolkits and follow-up was per-
   formed by the Bureau of Information Resource Management, Ofﬁce of Information Assurance.

   Recommendation 10: The Chief Information Ofﬁcer should develop and maintain
   Interconnection Security Agreements and Memoranda of Understanding/Agreements
   in System Security Accreditation ﬁles.

   2009 Status – Partially implemented. This recommendation was combined with Recommendation 5,
   which was also partially implemented, and has become Recommendation 2 in the FY 2009 report.

   Recommendation 11: The Chief Information Ofﬁcer should establish a process to
   monitor and validate security awareness training provided to those individuals without
   access to Department networks.

   2009 Status – Open.




OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009          43 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





44 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





                                          APPENDIX C



    BUREAU OF INFORMATION RESOURCE MANAGEMENT RESPONSE





OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   45 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





46 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   47 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





48 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   49 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





50 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   51 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





52 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   53 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





54 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   55 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





56 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
                                             UNCLASSIFIED





OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009   57 .


                                             UNCLASSIFIED
                           UNCLASSIFIED





58 .   OIG Report No. AUD/IT-10-10, Review of the Information Security Program at the DOS - Nov 2009


                           UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
